                                                                    October 29, 2004




The Honorable William H. Donaldson
Chairman
Securities and Exchange Commission
Washington, D.C. 20549

Dear Chairman Donaldson,
The attached Semiannual Report to Congress summarizes the activities of the Office
of Inspector General for the six months ending September 30, 2004. It contains
descriptions and accounts of the audit reports we issued during the period and
summarizes the activities of our investigative and other review functions.
In accordance with the Inspector General Act of 1978, as amended, this report
should be forwarded to Congress, with your comments and a separate management
response by November 30, 2004.
Your support and cooperation, as well as that of the Commission and its staff, are
greatly appreciated.


Sincerely,




Walter Stachnik
Inspector General


Attachment
       Securities and Exchange
           Commission
         Office of Inspector General

During the second half of fiscal year 2004, the Office of Inspector General
assisted the Commission in its efforts to:


      - Strengthen Commission targeting of investment advisor/investment
            company compliance examinations,

      - Improve management of the Office of Economic Analysis,

      - Enhance the integrity of the Commission and its staff by
           investigating allegations of misconduct,

      - Improve the process for reporting reviews of disclosure filings,

      - Enhance implementation of a project to image documents used in
           enforcement investigations,

      - Ensure timely legal review of complex or significant procurement
           actions, and

      - Assure the effectiveness of field office administrative controls.




                                          2
                          Executive Summary
During this period (April 1, 2004 to September 30, 2004), the Office of Inspector General
(Office) issued six audit reports, one audit memorandum, and one investigative
memorandum on management issues. These evaluations focused on the review of disclosure
filings; targeting of investment advisor/investment company compliance examinations;
management of the Office of Economic Analysis; administrative controls in the Northeast
and Midwest Regional Offices and the Atlanta District Office; legal review of procurement
actions; and the document imaging system.
Twelve investigations were closed during the period. Four subjects were referred to the
Department of Justice, which declined prosecution as to three subjects. The referral of one
subject to the Department of Justice is pending. Six subjects were referred to the
Commission. One subject resigned, one subject retired, and one subject entered into a last
chance agreement after removal was proposed. Another subject agreed to a 3-day
suspension. In addition, three subjects referred during prior periods were suspended and
three subjects referred during prior periods were counseled. Four subjects referred to the
Commission during this period and prior periods are awaiting disposition. The
Investigative Program section below describes the significant cases.
Information resources management (IRM) has been previously reported as a significant
problem. During this period, the Commission continued to improve its management of these
resources, but significant weaknesses remain. We intend to maintain our audit focus in this
important area.
An audit completed in a prior period found that Commission financial management controls
for fiscal year 2002 were effective in all material respects except for controls over property
accountability, accounting and control of disgorgements, information system and security
program controls, and the Disgorgement and Penalties Tracking System. Accordingly, we
reported these exceptions, taken together, as a significant problem. Several high-level task
forces have taken steps or are currently taking steps to correct these weaknesses. We
commend the Commission for initiating prompt corrective actions and its continuing efforts
to strengthen its financial management controls.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.



                                 Audit Program
The Office issued six audit reports, one audit memorandum, and one investigative
memorandum on management issues during the reporting period. These documents
contained a total of 30 recommendations, which are further summarized below.

                                                  3
Management generally concurred with the recommendations, and in many cases took
corrective actions during the audits.


DISCLOSURE FILINGS EXAMINATION AND ACCOUNTING REPORTS
(AUDIT 378)
Staff in the Division of Corporation Finance review filings submitted by registrants under
the securities laws. The staff prepare either an examination (legal) or accounting report,
consisting of a checklist of steps performed and a narrative section. After a supervisor
reviews the report, a comment letter is sent to the registrant when appropriate.
Our audit objective was to evaluate whether the Division of Corporation Finance's
examination and accounting report process was achieving its objectives. During the audit,
we interviewed Division attorneys and accountants, and analyzed judgment samples of
examination and accounting reports, among other procedures.
We found that the reporting process was generally achieving its objectives (e.g.,
documenting the scope of the filing review, providing the staff with timely and substantive
supervisory review comments).
We made several recommendations to improve the process, including: reminding Division
staff and supervisors to upload reports to the filing folder in the Commission’s Electronic
Data Gathering Analysis and Retrieval system (EDGAR), clarifying the EDGAR uploading
guidance, and safeguarding sensitive information. During the audit, we also discussed
other issues with senior management.


TARGETING IA/IC COMPLIANCE EXAMINATIONS
(AUDIT 383)
We reviewed the Commission’s targeting of Investment Adviser (IA) and Investment
Company (IC) examinations. The Examination program consists of the Office of
Compliance Inspections and Examinations (OCIE) and the Examination staff in the field
offices.
We found that the IA/IC targeting process was generally effective and efficient. In 1998,
OCIE established a targeting goal of examining every registrant over a five year period.
According to OCIE, this targeting goal, referred to as the five year cycle, was achieved. We
also noted that the IA/IC targeting process continued to innovate (e.g., experimenting with
continuous monitoring and implementing risk-based targeting).
We made several recommendations to improve the IA/IC targeting process. The
recommendations involve: conducting the fieldwork at the registrant, improving the use of
Form ADV to target examinations of IAs, consulting with the Office of Risk Assessment for
unregistered IAs/ICs and foreign IAs, reviewing the Examination program’s testing
procedures, and clarifying and modifying the 90 day goal for issuing deficiency letters.
During the audit, we also discussed other issues with senior management.
                                                 4
OFFICE OF ECONOMIC ANALYSIS
(AUDIT 385)
The Office of Economic Analysis (OEA) primarily serves to support the work of the
Commission. The Office provides economic analysis and expertise during rulemaking and
other Commission projects. OEA also performs independent research to enable the
Commission to better understand the securities markets and thereby enhance market
oversight.
We evaluated the usefulness of OEA’s activities and sought to identify possible
improvements. During our review, we interviewed OEA and other Commission staff, and
reviewed OEA work products and files.
Our review found that OEA’s work (including research studies and rule-making analyses) is
beneficial to the Commission. We also found that the Chief Economist hired motivated staff
whose interests are aligned with Commission interests, sought to produce high-quality
analyses and encouraged staff to take advantage of training opportunities.
Our recommendations concerned training of OEA’s managers; dividing office operations
between the Chief Economist and other OEA managers; enhancing Commission awareness
of OEA’s services; providing guidance to OEA management on Commission expectations;
and enhancing OEA’s internal operations, policies and procedures.


NORTHEAST REGIONAL OFFICE (AUDIT 386); MIDWEST REGIONAL
OFFICE (AUDIT 388); ATLANTA DISTRICT OFFICE (AUDIT 390)
The Northeast Regional Office (NERO), the Midwest Regional Office (MRO), and the
Atlanta District Office (ADO) exercise a broad range of financial and administrative
functions, including maintaining time and attendance records; procuring supplies and
services; arranging for staff travel; maintaining an inventory of property; and recording
budgeted and actual expenditures of the office. We conducted a limited audit of the
financial and administrative controls of these field offices.
Our limited review indicated that the controls of the NERO, MRO, and ADO were generally
adequate, implemented economically and efficiently, and in compliance with Commission
policies and procedures. We discussed some non-material findings and informal
recommendations with management in these offices.


DOCUMENT IMAGING SYSTEM
(AUDIT MEMORANDUM 38)
In April 2004, the Division of Enforcement and the Office of Information Technology (OIT)
undertook an initiative to electronically image enforcement documentation. To date,
contractors have imaged documents from Commission headquarters and field offices in New
York, Boston, Chicago, and Philadelphia. The Commission plans to image documents from

                                                 5
the Atlanta and Miami field offices in fiscal years 2004-2005, and from the remaining field
offices in fiscal year 2005.
We learned of problems with the imaging done to date. As a result, we surveyed system
users in headquarters and the Northeast Regional Office to identify problems they were
experiencing and identify possible improvements.
The users mentioned several problems related to technical, quality control and staffing
issues. We communicated these issues to OIT and Enforcement staff, who indicated that
they were already aware of and working to resolve many of the issues.
Therefore, we did not make any recommendations in this report. However, we may initiate
a follow-up audit in 2005 to evaluate the progress to date.


LEGAL REVIEW OF PROCUREMENT ACTIONS
(INVESTIGATIVE REPORT ON MANAGEMENT ISSUES G-404)
During an investigation, we learned that the Office of Administrative Services (OAS)
approved a subcontract for certain services for a firm fixed price of approximately $200,000.
 Legal review of this matter was still pending in the Office of General Counsel (OGC). In
addition, we learned that this subcontractor began work after receiving verbal
authorization, but before the appropriate contractual documents (i.e., a procurement
requisition and task order) were executed.
An existing Memorandum of Understanding (MOU) between the Office of the Executive
Director and OGC, dated February 6, 1995, requires that OGC review significant
procurement actions at critical phases of the procurement process to ensure legal
sufficiency.
We recommended that OAS and OGC develop policies and procedures to improve their
communications on procurement actions. We also recommended that OAS establish
procedures to ensure that the appropriate contractual documents are executed before any
work is performed.



                           Investigative Program
Twelve investigations were closed during the period. Four subjects were referred to the
Department of Justice, which declined prosecution as to three subjects. The referral of one
subject to the Department of Justice is pending. Six subjects were referred to the
Commission. One subject resigned, one subject retired, and one subject entered into a last
chance agreement after removal was proposed. Another subject agreed to a 3-day
suspension. In addition, three subjects referred during prior periods were suspended and
three subjects referred during prior periods were counseled. Four subjects referred to the
Commission during this period and prior periods are awaiting disposition. The most
significant cases closed during the period are described below.

                                                 6
CONFLICT OF INTEREST
An investigation found evidence that a staff member had engaged in the private practice of
law and represented private clients in matters before another federal agency, after being
hired by the Commission. We also found evidence that the staff member used SEC office
equipment for the private law practice. The Department of Justice declined prosecution.
The employee resigned before administrative action was taken.
The Office investigated another allegation that a Senior Officer directed that ongoing
contract work be stopped, so that the work could be given to persons with whom the official
had a prior relationship. The evidence developed during the investigation failed to
substantiate the allegation.


SOLICITATION OF A GRATUITY
An Office investigation developed evidence that a staff member had solicited a gratuity
from an officer of a firm registered with the Commission, after the staff member had
conducted an examination of the firm and closed the examination without any findings.
The matter is pending with the Department of Justice and Commission management.


IMPROPER PAYMENT
The Office investigated an allegation that Commission officials had colluded to make an
improper payment, in return for including one of the officials as a co-author on a published
article. The evidence developed during the investigation failed to substantiate the
allegation.


THREATENING AND INTIMIDATING CONDUCT
An Office investigation developed evidence that a staff member had disclosed having
homicidal thoughts about the staff member’s supervisor and described a plan to carry out
those thoughts. We also found evidence that the staff member had previously made
threatening and intimidating statements to a co-worker. The Department of Justice
declined prosecution. Administrative action is pending.



                            Significant Problems
No new significant problems were identified during the period.




                                                 7
             Significant Problems Identified Previously

FINANCIAL MANAGEMENT SYSTEMS CONTROLS
An OIG contractor completed an audit of Commission financial management systems
controls during a prior period (Audit No. 362). The audit found that Commission financial
management controls for fiscal year 2002 were effective in all material respects 1 except for
three material weaknesses and one material non-conformance. The exceptions concerned
property accountability, accounting and control of disgorgements, information system and
security program controls, and the Disgorgement and Penalties Tracking System. We
reported that, taken together, these financial management exceptions are a significant
problem for the Commission.
Management concurred with our recommendations to strengthen these financial controls,
and several high-level task forces have taken actions or are taking actions to correct the
weaknesses. GAO is reviewing the corrective actions taken by the task forces as part of its
ongoing audit of the Commission’s fiscal year 2004 financial statements.
We commend the Commission for its prompt actions to address the identified weaknesses in
financial management systems controls.


INFORMATION RESOURCES MANAGEMENT
Since April 1996, we have reported information resources management (IRM) as a
significant problem based on weaknesses identified by audits, investigations, and
management studies. Significant IRM weaknesses of continuing concern include IT capital
investment decision-making; information systems security; administration of IT contracts;
IT project management; enterprise architecture management; strategic management of IT
human capital; and management of software licenses.
During this reporting period, under the direction of the CIO, the Office of Information
Technology (OIT) was reorganized. The reorganization, in part, was intended to:
       •   Clarify responsibilities within and between OIT’s offices and operational
           components;
       •   Create new, formal roles for enterprise architecture, project oversight, and capital
           planning;
       •   Realign OIT resources to more effectively support the planning, design, deployment,
           and support of IT investment initiatives and major projects; and
       •   Establish improved controls over the Commission’s substantial increases in IT
           funding and workload.
       •   In addition, over the past six months, OIT:

1
    Based on criteria established under the Federal Managers Financial Integrity Act (FMFIA).
                                                                8
   •   Established an enterprise architecture (EA) and project management office (PMO)
       within OIT, and filled vacant senior management positions for the offices of
       information security, enterprise architecture, project management, and finance and
       administration;
   •   Implemented the initial stages of a comprehensive redesign of its capital planning
       and investment (CPIC) processes, which include new operating budget approvals
       and IT investment approval thresholds;
   •   Finalized an EA repository and activated an internal EA website to provide project
       sponsors and managers ready access to the Commission’s business reference model
       and information resource catalog;
   •   Produced an IT policy framework to align OIT’s operational controls and policies to
       the Clinger-Cohen Act’s Core Competencies and OMB implementing instructions for
       IT governance; and
   •   Continued to certify and accredit the Commission’s general support and financial
       information systems.

During this period, we initiated audits covering the Commission’s management of software
licenses and field office IT management, as well as an evaluation of the Commission’s
information security program (required by the Federal Information Security Management
Act). In addition, we are performing audits of the controls over IT contractor billings and of
the enterprise architecture management framework.
Although OIT continues to take action to address and correct many of the longstanding
IRM weaknesses that we have reported, we still consider IRM to be a significant problem.
We intend to continue our oversight of the Commission’s progress in correcting the many
longstanding weaknesses in its IRM business processes and management controls.



                            Access to Information
The Office of Inspector General has received access to all information required to carry out
its activities. No reports to the Chairman, concerning refusal of such information, were
made during the period.



                                    Other Matters

AUDIT OF COMMISSION FINANCIAL STATEMENTS
Under the Accountability of Tax Dollars Act of 2002, the Commission is now required to
prepare audited financial statements. The Office of Management and Budget had waived
this requirement for fiscal years 2002 and 2003.


                                                  9
The U.S. General Accounting Office is currently performing the initial financial statement
audit of the Commission for fiscal year 2004, and is expected to perform the audit for fiscal
year 2005. Our Office is evaluating whether it should perform this audit in fiscal year 2006
and subsequent years.


EXTERNAL COORDINATION
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of
its Financial Institutions Regulatory Committee, and serves as the ECIE member on the
Integrity Committee (established by Executive Order No. 12993).
The Deputy Inspector General is an active member of the Federal Audit Executive Council
(FAEC). The FAEC considers audit issues relevant to the Inspector General community.
In addition, the Deputy Inspector General made a presentation in June 2004 at a workshop
on Internal Audit of Financial Sector Supervisory and Regulatory Authorities in Tallinn,
Estonia.
The Counsel to the Inspector General is an active member of the PCIE Council of Counsels.
The Council considers legal issues relevant to the Inspector General community.




                                                 10
                                Questioned Costs

                                                                DOLLAR VALUE
                                                               (IN THOUSANDS)


                                                            UNSUPPORTED   QUESTIONED
                                               NUMBER          COSTS        COSTS
A          For which no management decision
           has been made by the
           commencement of the reporting                0           0               0
           period

B          Which were issued during the
           reporting period
                                                    0           0               0

           Subtotals (A+B)                              0           0               0

C          For which a management decision              0           0               0
           was made during the reporting
           period

    (i)    Dollar value of disallowed costs             0           0               0

    (ii)   Dollar value of costs not                    0       0                   0
           disallowed

D          For which no management                      0       0                   0
           decision has been made by the end
           of the period

           Reports for which no management              0       0                   0
           decision was made within six
           months of issuance




                                               11
               Recommendations That Funds Be Put To
                         Better Use
                                                                     DOLLAR VALUE
                                                          NUMBER    (IN THOUSANDS)
A             For which no management decision
              has been made by the commencement
                                                                1         132
              of the reporting period
B             Which were issued during the
              reporting period
                                                            0            0


              Subtotals (A+B)                                   1         132
C             For which a management decision                   0            0
              was made during the period
    (i)       Dollar value of recommendations that              0            0
              were agreed to by management
          -   Based on proposed management                      0            0
              action
          -   Based on proposed legislative action              0            0
    (ii)      Dollar value of recommendations that              0            0
              were not agreed to by management
D             For which no management decision
              has been made by the end of the
                                                                1         132
              reporting period
              Reports for which no management
              decision was made within six months
                                                                1         132
              of issuance




                                                     12
        Reports with No Management Decisions
A management decision has not yet been made on our recommendation that $132,000 be
put to better use (Audit No. 376, Telephone Card Program, summarized in our previous
semi-annual report).



               Revised Management Decisions
No management decisions were revised during the period.



       Agreement with Significant Management
                     Decisions
The Office of Inspector General agrees with all significant management decisions regarding
audit recommendations.




                                               13
                   MANAGEMENT RESPONSE OF
            THE SECURITIES AND EXCHANGE COMMISSION
 ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL
      FOR THE PERIOD APRIL 1, 2004 THROUGH SEPTEMBER 30, 2004


Introduction

The Semiannual Report of the Inspector General (IG) of the Securities and Exchange
Commission (SEC) was submitted to the Chairman on October 29, 2004 as required by the
Inspector General Act of 1978, as amended. The report has been reviewed by the Managing
Executive for Operations, Executive Director, General Counsel, and Director of the Division of
Enforcement. The management response is based on their views and consultation with the
Chairman.

The management response is divided into four sections to reflect the specific requirements listed
in Section 5(b) of the Inspector General Act of 1978, as amended.

                                       Section I
                  Comments Keyed to Significant Sections of the IG Report

A. Audit Program

     During the reporting period, the IG issued six audit reports, one audit memorandum, and
     one investigative memorandum. Management generally concurred with the findings and
     recommendations in the IG’s reports.

     In addition to audits performed by the agency’s IG, the General Accounting Office (GAO)
     actively reviewed program and administrative functions of the SEC. A complete listing of
     all GAO audit activity involving the SEC is attached as Appendix A.

B.   Response to Significant Problems

     No new significant problems were identified by the IG during this reporting period.

C. Response to Significant Problems Previously Identified

     The IG’s Semiannual Report discusses the following significant problems that were
     previously identified:

     o Financial Management System Controls. The IG’s Semiannual Report continues to
       identify the financial management exceptions reported in both the SEC’s Federal
       Manager’s Financial Integrity Act certification and a contractor’s audit of Commission
       financial management system controls as a significant problem for the Commission.
       Most of the recommendations have been addressed in preparation for the Commission’s
       financial statement audit. For example, the recommendations to strengthen internal
    controls and financial reporting on sensitive and accountable property have been
    implemented. A brief description of recent SEC actions to strengthen IT security and
    accounting and control for disgorgement funds follows.

        •   The SEC continues to make progress in its IT security program. During the last
            six months, the SEC hired a Chief Information Security Officer to centrally
            manage and implement the various components of the program. In addition, the
            SEC began a certification and accreditation project to ensure that all SEC major
            operating systems are secure. The SEC also implemented a mandatory security
            training and awareness program and began revising information security
            management and technology controls and procedures. In addition, the SEC
            continued work on an IT capital planning process designed to ensure that security
            is built into the life-cycle of new systems and applications and to better identify,
            track, and report information security costs.

        •   With respect to accounting and controls for disgorgement funds, in fiscal 2003,
            the Commission replaced the former Disgorgement and Penalties Tracking
            System with an upgrade to its Case Activity Tracking System (CATS 2000). In
            late 2003 and early 2004, enhancements were made to CATS 2000 to enable
            recording and reporting of disgorgement and penalties, and to track amounts
            collected and disbursed. Also during fiscal 2004, the SEC’s Office of Financial
            Management assumed new responsibilities for managing much of the financial
            data on enforcement-related judgments and penalties in the CATS 2000 system.
            Further enhancements are underway to provide more financial data integrity
            support. In the long term, CATS 2000 will be replaced. A requirements analysis
            has begun.

o Information Resources Management. SEC management continues to make progress in its
  information resources management program. With the hiring of a new Chief Information
  Officer in early calendar year 2004, the Office of Information Technology was
  significantly restructured. A senior level manager was hired to head the enterprise
  architecture effort and a separate project management office was established and is
  headed by a newly hired senior level manager responsible for project management and
  capital planning.

   A few additional highlights include:

    •   Continued progress to improve the security of the technology environment. The
        initiative to certify and accredit the agency’s systems continued, and OIT launched a
        process to manage certification and accreditation activity on an ongoing basis.

    •   Established plans to improve information security based on the recommendations of
        the Government Accountability Office as part of the agency’s financial audit.


                                             2
        •   Implemented the initial stages of a comprehensive redesign of its capital planning
            and investment control processes.

        •   Substantially improved the SEC’s enterprise architecture planning with the
            completion of the Enterprise Architecture repository and an internal website to
            provide staff access to the business reference model, information resource catalog,
            and other core elements of the agency’s EA in planning their projects.

     With the new staff resources, the Office of Information Technology intends to bring the
     IRM program into full compliance with federal requirements by the end of fiscal 2005.
     Policies and procedures for capital planning and project management systems development
     will be completed. Further, both general support systems and financial applications will be
     accredited during fiscal 2005.

D. IG Recommendations Concerning Use of Funds

     On November 17, 2003, the IG issued a report concerning the Commission’s telephone card
     program. During the review, the IG found that the General Services Administration (GSA)
     had incorrectly billed the Commission approximately $132,000 for unused telephone lines.
     SEC management is following up with GSA on the appropriate resolution.

E.   Reports with No Management Decisions

     Management decisions have been made on all audits issued prior to the beginning of the
     reporting period (April 1, 2004).

F.   Revised Management Decisions

     No management decisions were revised during the reporting period.




                                                3
SEC Management Response to
Semiannual IG Report
April 1, 2004 – September 30, 2004


                                          SECTION II
                                        Disallowed Costs
                                    As of September 30, 2004


                                                                   Dollar Value
                                                          Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                        0          $0

B.     On which management decisions
       were made during the reporting
       period                                                  0          $0

       (Subtotal A+B)                                          0          $0

C.     For which final action was
       taken during the reporting
       period                                                  0          $0

       (i)    Recovered by management                          0          $0

       (ii)   Disallowed by management                         0          $0

D.     For which no final action has
       been taken by the end of the
       reporting period                                        0          $0




                                               4
SEC Management Response to
Semiannual IG Report
April 1, 2004 – September 30, 2004


                                           SECTION III
                                      Funds Put to Better Use
                                     As of September 30, 2004


                                                                  Dollar Value
                                                         Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                    1             $132

B.     On which management decisions
       were made during the reporting
       period                                              0             $0

C.     For which final action was
       taken during the reporting
       period                                              0             $0

       (i)    Dollar value of recom-
              mendations that were
              agreed to by management                      0             $0

       (ii)   Dollar value of recom-
              mendations that management
              has subsequently concluded
              should/could not be
              implemented or completed                     0             $0

D.     For which no final action has been
       taken by the end of the reporting period            1             $132




                                                  5
                                                                                 SEC Management Response to
                                                                                 Semiannual IG Report
                                                                                 April 1, 2004 – September 30, 2004

                                                  SECTION IV
                                      Open Audit Reports Over One Year Old
                                            As of September 30, 2004


                                         Funds Put to
                                           Better Use         Questioned Costs
Audit #   Audit Title        Issued      (in thousands)        (in thousands)    Reason Final Action Not Taken

220       IRM Planning and
          Execution          3/26/1996       $0                     $0           Until recently, the IT area had been
                                                                                 seriously hampered in its efforts to
                                                                                 formalize several IT policies
                                                                                 and procedures by a lack of resources.
                                                                                 The structure of the Office of
                                                                                 Information Technology has been
                                                                                 significantly revised and new staff have
                                                                                 been hired. With the new staff resources,
                                                                                 the remaining audit recommendations are
                                                                                 expected to satisfied by fiscal year-end.

243       SECOA Local Area
          Network            3/21/1997       $0                     $0           A major effort is underway to certify and
                                                                                 accredit existing major applications and
                                                                                 general support systems. This effort is
                                                                                 expected to be completed by fiscal year-end.

                                                          6
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          April 1, 2004 – September 30, 2004

                                                           SECTION IV
                                               Open Audit Reports Over One Year Old
                                                     As of September 30, 2004


                                                 Funds Put to
                                                   Better Use          Questioned Costs
Audit #   Audit Title               Issued       (in thousands)         (in thousands)     Reason Final Action Not Taken

257       Client Server             9/9/1997         $0                      $0            A new process has been designed to
                                                                                           identify major IT initiatives. This
                                                                                           process is expected to be considered
                                                                                           by the Capital Planning Committee
                                                                                           during 2nd quarter of fiscal 2005.

269       Database Administration   1/5/1998         $0                      $0            See item #257.

320       General Computer Controls 12/26/2000       $0                      $0            New staff have been hired to manage the
                                                                                           IT project management and capital planning
                                                                                           activities. In addition, a proposed
                                                                                           strategy for monitoring IT projects is being
                                                                                           tested.

327       General Computer
          Controls—Regions          2/28/2001        $0                      $0            See explanation for audit #220.


                                                                   7
                                                                                      SEC Management Response to
                                                                                      Semiannual IG Report
                                                                                      April 1, 2004 – September 30, 2004

                                                       SECTION IV
                                           Open Audit Reports Over One Year Old
                                                 As of September 30, 2004


                                              Funds Put to
                                                Better Use         Questioned Costs
Audit #   Audit Title             Issued      (in thousands)        (in thousands)     Reason Final Action Not Taken

330       Real Property Leasing   5/31/2001       $0                     $0            Work on an updated leasing regulation has
                                                                                       been delayed as staff have been diverted to
                                                                                       work on the SEC’s new headquarters
                                                                                       building.

337       IT Project Management   1/24/2002       $0                     $0            Some of the recommendations have been
                                                                                       implemented. However, progress was
                                                                                       slowed due to a shortage of IT staff.
                                                                                       During this period, a senior level manager
                                                                                       was hired to lead the IT project management
                                                                                       and capital planning office. Work on the
                                                                                       recommendations is continuing.




                                                               8
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          April 1, 2004 – September 30, 2004

                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                      As of September 30, 2004


                                                Funds Put to
                                                  Better Use         Questioned Costs
Audit #   Audit Title               Issued      (in thousands)        (in thousands)    Reason Final Action Not Taken

346       Commission Oversight of
            NAFI                    3/7/2002          $0                  $0            Efforts to better structure the Recreation
                                                                                        and Welfare Association have been delayed
                                                                                        as staff have been diverted to important
                                                                                        security operations matters. Work will
                                                                                        continue as resources become available.

350       Administration of IT
          Contracts                 8/28/2002         $0                   $0           See explanation for audit #337.

351       EDGAR Utility to
          Commission Staff          1/15/2003         $0                   $0           Post-acceptance corrections will be
                                                                                        addressed in 2005. The outcome will
                                                                                        become part of the requirements for a
                                                                                        follow-on contract, which should be signed
                                                                                        in 2006.


                                                                 9
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          April 1, 2004 – September 30, 2004

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2004


                                                 Funds Put to
                                                   Better Use          Questioned Costs
Audit #   Audit Title               Issued       (in thousands)         (in thousands)       Reason Final Action Not Taken

353       Regional Telecommuni-
          cations Security          8/20/2002        $0                      $0              See explanation for audit #309.

354       Broker-dealer Risk
          Assessment Program        8/13/2002          $0                    $0              The Commission’s risk assessment rules
                                                                                             are being revised.

357       Purchase Cards            11/25/2002         $0                    $0              Work on a revised purchase card
                                                                                             regulation has been slowed due to a
                                                                                             shortage of procurement staff. A new
                                                                                             procurement chief is being hired.

361       Commission Web Security   9/30/2002          $0                    $0              See explanation for audit #337.




                                                                  10
                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         April 1, 2004 – September 30, 2004

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2004


                                                Funds Put to
                                                  Better Use          Questioned Costs
Audit #   Audit Title               Issued      (in thousands)         (in thousands)       Reason Final Action Not Taken

362       Financial Management
          System Controls           3/27/2003         $0                    $0              GAO is reviewing the corrective
                                                                                            actions taken by the SEC as part of the
                                                                                            audit of the financial statements.

368       SEC Recreation and
          Welfare Asso. Financial
          Management                7/31/2003         $0                    $0              See explanation for audit #346.

M14       Contingency Testing       3/15/1999         $0                    $0              See explanation for audit #220.

M22       Rural Office Location
           Policy                   3/28/2002         $0                    $0              The SEC is complying with the Rural
                                                                                            Development Act. Work on a formal
                                                                                            policy document has been delayed as
                                                                                            resources are being devoted to the new
                                                                                            SEC Headquarters project.

                                                                 11
                                                                                            SEC Management Response to
                                                                                            Semiannual IG Report
                                                                                            April 1, 2004 – September 30, 2004

                                                             SECTION IV
                                                 Open Audit Reports Over One Year Old
                                                       As of September 30, 2004


                                                   Funds Put to
                                                     Better Use          Questioned Costs
Audit #   Audit Title                 Issued       (in thousands)         (in thousands)       Reason Final Action Not Taken

M27       NRSI Password
          Management                  1/29/2003          $0                    $0              See explanation for audit #220.

M30       Rural Relocation Policy--
          Followup                    6/19/2003          $0                    $0              See explanation for audit #M22.

M31       Social Security Numbers
          in EDGAR                    9/8/2003           $0                    $0              The recommendations will be addressed
                                                                                               in a future EDGAR rulemaking initiative.




                                                                    12
                                                                  APPENDIX A


                       Government Accountability Office Audit Activity
                      Involving the Securities and Exchange Commission


Reports Issued During the Reporting Period

1.     Financial Market Preparedness: Improvements Made, but More Action Needed to Prepare
       for Wide-Scale Disasters, GAO-04-984 (9/2004)

2.     Foreign Regimes’ Assets: The United States Faces Challenges in Recovering Assets, but
       Has Mechanisms That Could Guide Future Efforts, GAO-04-1006 (9/2004)

3.     Export-Import Bank: OMB’s Method for Estimating Bank’s Loss Rates Involves Challenges
       and Lacks Transparency, GAO-04-531 (9/2004)

4.     Pension Plans: Additional Transparency and Other Actions Needed in Connection with
       Proxy Voting, GAO-04-749 (8/2004)

5.     Environmental Disclosure: SEC Should Explore Ways to Improve Tracking and
       Transparency of Information, GAO-04-808 (7/2004)

6.     Securities and Exchange Commission: Review of Fiscal Year 2003 and 2004 Budget
       Allocations, GAO-04-818 (7/2004)

7.     Follow-up on SIPC, GAO-04-848R (7/9/2004)

8.     Mutual Funds: SEC Should Modify Proposed Regulations to Address Some Pension Plan
       Concerns, GAO-04-799 (7/2004)

9.     Better Information Sharing Among Financial Services Regulators Could Improve
       Protections for Consumers, GAO-04-882R (6/2004)

10.    Business-Owned Life Insurance: More Data Could be Useful in Making Tax Policy
       Decisions, GAO-04-303 (5/2004)

11.    Securities Markets: Opportunities Exist to Enhance Investor Confidence and Improve
       Listing Program Oversight, GAO-04-75 (4/2004)

12.    Investigations of Terrorist Financing, Money Laundering, and Other Financial Crimes,
       GAO-04-464R (2/20/2004)
Audits in Progress as of September 30, 2004

1. Disgorgement and Fines (250214). A follow-up on the status of various reform efforts, such
   as the Commission’s efforts in improving and managing the disgorgements and fines data
   tracking system (CATS 2000), and the status of collection rates. Also, an assessment to what
   extent the Commission has implemented Section 308 (Fair Funds Provision) of the Sarbanes-
   Oxley Act, and any other legislative or regulatory actions that assist efforts to collect
   penalties and disgorgements.

2. Global Social Responsibility (320271). A review of federal involvement in global corporate
   social responsibility. Specifically, a study of (1) the definition of corporate social
   responsibility and global corporate social responsibility, (2) the role, if any, that federal
   agencies have in promoting or monitoring global corporate social responsibility, and (3)
   whether federal programs or policies either promote or undermine U.S. company global
   corporate social responsibility efforts.

3. PUHCA (250213). A review of the SEC’s administration and enforcement of the Public
   Utility Holding Company Act of 1935. Specifically, an assessment of the Office of Public
   Utility Regulation’s processes for reviewing claims of exemptions, assessing registered
   holding companies, and issuing no-action letters, and how the Commission determines
   whether companies exert controlling influence over a public utility holding company.

4. Tax Treatment of Large Settlements (450296). A review of the tax treatment of large
   settlements reached by federal regulatory and oversight agencies.

5. Trading Abuse Detection (250200). A review of the information systems and methods
   securities regulators could use to detect late trading and market timing in mutual fund shares.

6. Mutual Fund Enforcement (250199). A review of the SEC’s enforcement activities and
   capabilities related to the mutual fund industry.

7. Decimalization (250195). A review of the impact decimalization has had on (1) the
   securities markets, (2) securities market participants, and (3) institutional and retail investors.

8. Mutual Fund Inspections (250185). A review of the current mutual fund inspection process
   for gaps and the adequacy of resources devoted to fund examination. GAO will determine
   whether the scope and conduct of broker inspections is adequate with respect to the sales of
   mutual funds and other issues relating to broker-dealer sales of mutual funds.

9. Financial Services Regulation Structure and Processes (250151). A review of the structure
   and processes—capital requirements, supervision, reliance on transparency, and market
   discipline—of financial services regulation in the United States.



                                                  2
10. SEC Operations II (250138). A review of the SEC’s efforts to address issues raised in the
    GAO reports, Securities and Exchange Commission: Human Capital Challenges Require
    Management Attention (GAO-01-947) and SEC Operations: Increased Workload Creates
   Challenges (GAO-02-302).

11. Pricing of Loan Commitments (250177). A study to (1) determine how pricing on unfunded
    commitments compares to pricing on funded commitments; (2) collect and report publicly
    available data on the trading of credit facilities, and available comparisons of differences, if
    any, in internal and external reporting of loan commitment prices; (3) determine what data is
    publicly available about the use of credit derivative instruments for hedging risks of
    unfunded loan commitments and what this indicates about loan commitment pricing; and (4)
    discuss steps taken by FASB to improve financial reporting for loan commitments.

12. Accounting Firms and Auditing Publicly-Traded Corporations (450283). A review of
   accounting firms that provide auditing services to publicly-traded corporations while also
    providing tax-related services, including possible tax shelter services, to those corporations,
    their directors, or their officers.

13. Implementation of USA Patriot Act’s Anti-money Laundering Provisions (250179). A
   review of (1) the status of implementation of sections 326 and 314, (2) the Treasury’s and
   regulators’ procedures for assessing compliance and enforcement, (3) plans to sustain efforts
   to educate the industry about the new regulations, and (4) extent to which regulators have
   revised examination guidance and applied it.

14. Career Appointments of Former Political Appointees (450274). A government-wide review
    of executive branch agencies and departments to assess career appointments of former
    political appointees.

15. Survey of Consumers’ Financial Literacy (250186). A review of the state of consumer
   knowledge and awareness of credit reports, credit scores, and the dispute resolution process
    and methods of improving consumers’ financial literacy.

16. FY 2004 Financial Statement Audit (198241). An audit of the SEC’s fiscal year 2004
   financial statements.




                                                 3
